App. 1
Order

Michigan Supreme Court
Lansing, Michigan

June 12, 2020
158102

Bridget McCormack,
Chief Justice
David F. Viviano,
Chief Justice Pro Tem
Stephen J. Markman
Brian K. Zahra
Richard H. Bernstein
Elizabeth T. Clement
Megan K. Cavanagh,
Justices

PEOPLE OF THE
STATE OF MICHIGAN,
Plaintiff-Appellant,

SC: 158102
COA: 339079
Oakland CC :
2016-260482-FC

v
LARICCA SEMINTA MATHEWS,
Defendant-Appellee.

/

On October 3, 2019, the Court heard oral argument on the application for leave to appeal the May 22,
2018 judgment of the Court of Appeals. On order of the
Court, the application is again considered, and it is
DENIED, because we are not persuaded that the
question presented should be reviewed by this Court.

App. 2
VIVIANO, J. (dissenting.)
I dissent from the majority’s decision to deny leave
in this case because I believe that the Court of Appeals
erred in concluding that the warnings provided to
defendant were insufficient under Miranda v Arizona,
384 US 436 (1966), and its progeny. I would reverse.
I
Defendant Laricca Mathews was charged with
open murder, MCL 750.316, and related firearms
charges arising out of the shooting death of her
boyfriend, Gabriel Dumas. Defendant called 911 and
told the dispatcher that she had shot Dumas. After the
police arrived at the scene, she was taken into custody
and transported to the Wixom Police Department.
Defendant was interviewed twice while at the police
station. Both interviews were videotaped, as required
by MCL 763.8(2). During the first interview, Detective
Brian Stowinsky provided defendant with an adviceof-rights form, which stated:
Before any questions are asked of you,
you should know: (1) you have a right to
remain silent; (2) anything you say may be
used against you; (3) you have a right to a
lawyer, and (4) if you cannot afford a lawyer,
one will be provided free.
I understand what my rights are and am
willing to talk.

App. 3
Detective Stowinsky orally reviewed the adviceof-rights form with defendant, and the following
exchange took place:
[Detective Stowinsky]:
review these, ok?
[Defendant]:

Uh hmm.

[Detective Stowinsky]:
these to you.
[Defendant]:

Ok, um, I’m going to

I’m going to read

Uh hmm.

[Detective Stowinsky]: Um, before I question,
start asking you, you should know that you
have a right to remain silent.
[Defendant]:

Uh hmm.

[Detective Stowinsky]: Anything you say
maybe [sic] used against you. You have a right
to a lawyer, if you cannot afford a lawyer, one
will be provided for free. Do you understand
your rights?
[Defendant]:

Yes.

[Detective Stowinsky]:
with me?
[Defendant]:

Do you want to talk

Yeah, we can talk.

Defendant signed the form, and Detective Stowinsky
proceeded to interview her. During the interview,
defendant claimed that she and Dumas had been
fighting and that she had shot Dumas in self-defense
after Dumas attacked her.

App. 4
Later that day, Sergeant Michael DesRosiers
conducted a second interview with defendant. Before
the interview, the following exchange took place:
[Sergeant DesRosiers]: . . . Alright, so um,
Detective Stowinsky, remember he talked
about your rights and everything?
[Defendant]:

Uh hmm.

[Sergeant DesRosiers]: Same thing applies.
Um, you don’t, you don’t have to even talk to
me if you don’t want to. You can get an
attorney um, if you can’t afford one, we’ll
make sure you get one.
[Defendant]:

Ok.

[Sergeant DesRosiers]: So, um, we’re just
continuing the interview that you started
with him. I just looked over the statement and
have a couple questions about it. Um, so I’m
looking at the statement and the problem I
have, and you can stop me at any time you
want, is, it’s from the things in the statement
don’t necessarily match up with the evidence
we found.
During the second interview, defendant claimed that
she shot the victim when they were “face to face.”
When Sergeant DesRosiers told defendant that Dumas
had been shot in the back of the head, defendant
speculated that the bullet may have ricocheted off the
wall. She also suggested the shooting may have been
an accident.

App. 5
Defendant filed a motion to suppress the statements that she made to police arguing, in pertinent
part, that the police failed to advise her that she had
the right to have an attorney present both before and
during questioning.1 The trial court granted defendant’s motion, concluding that the police had failed to
inform defendant that she had the right to have an
attorney present during the interrogation. The Court
of Appeals initially denied the prosecution’s interlocutory application for leave to appeal, but on remand
from this Court, in a split decision, the Court of
Appeals affirmed the trial court’s ruling that suppressed defendant’s statements. After recognizing the
conflicting authority on the issue, the Court of Appeals
agreed with the trial court, holding that “a general
warning regarding a ‘right to a lawyer’ does not comply
with the dictates of Miranda.” People v Mathews, 324
Mich App 416, 429 (2018). Because there was no
binding caselaw addressing this issue, the Court of
Appeals undertook a lengthy and thorough review of
its own cases, along with cases from the federal circuits
and our sister state courts. Ultimately, the Court of
Appeals majority decided to follow its own prior
decisions, see, e.g., People v Whisenant, 11 Mich App

1

Defendant also contended that the statements should be
suppressed because the police failed to advise her that she could
terminate the questioning at any point. Although the trial court
did not address this argument, the Court of Appeals rejected it
and defendant has not appealed that ruling.

App. 6
432, 434 (1968),2 and those of the federal circuit courts,
holding that a defendant must be specifically advised
of the right to the presence of an attorney during
questioning. See, e.g., United States v Noti, 731 F2d
610, 615 (CA 9, 1984). The Court of Appeals described
the decisions of other federal circuits holding that
general warnings were sufficient as “disingenuous in
light of Miranda’s mandate for clear and unambiguous
warnings[.]” Mathews, 324 Mich App at 438.
II
Miranda has been called a “pathmarking decision.” Florida v Powell, 559 US 50, 53 (2010). It ruled
that “an individual must be ‘clearly informed,’ prior to
custodial questioning, that he has, among other rights,
‘the right to consult with a lawyer and to have the
lawyer with him during interrogation.’ ” Id., quoting
Miranda, 384 US at 471. It is beyond dispute, however,
that Miranda was not intended, and has not been
interpreted, as establishing a precise incantation that
must be given prior to a custodial interrogation.
Miranda itself said that either the warnings it laid
down or “a fully effective equivalent” were required.
Miranda, 384 US at 476; see also Rhode Island v Innis,
446 US 291, 297 (1980) (noting that the safeguards
include the “Miranda warnings . . . or their equivalent”).
2

Other opinions from the Court of Appeals followed the
cursory analysis in Whisenant. See People v Jourdan, 14 Mich
App 743 (1968); People v Hopper, 21 Mich App 276 (1970).

App. 7
The Supreme Court’s post-Miranda pronouncements on the topic similarly make clear that the “Court
has not dictated the words in which the essential
information must be conveyed.” Powell, 559 US at 60;
see also California v Prysock, 453 US 355 (1981) (“This
Court has never indicated that the ‘rigidity’ of
Miranda extends to the precise formulation of the
warnings given a criminal defendant. . . . Quite the
contrary, Miranda itself indicated that no talismanic
incantation was required to satisfy its strictures.”). The
question is whether the warning that was given
reasonably conveyed the rights specified in Miranda,
and in making this determination the warning need
not be interpreted as though it were a legal document.
Duckworth v Eagan, 492 US 195, 203 (1989).
With regard to the specific warning at issue here—
the notice of the right to an attorney—the Supreme
Court has not established that the warning must
expressly notify the suspect of the right to consult an
attorney before questioning or have one present during
it. Some comments in Miranda suggest such a requirement. See Miranda, 384 US at 471 (“Accordingly we
hold that an individual held for interrogation must be
clearly informed that he has the right to consult with
a lawyer and to have the lawyer with him during
interrogation. . . .”). But other statements mentioned
the right to an attorney’s “presence” without specifying
when and where the “presence” would occur.3 And
3

See id. at 444 (“Prior to any questioning, the person must
be warned that . . . he has a right to the presence of an
attorney. . . .”); id. at 479 (An individual in custodial interrogation

App. 8
when the Court gave an example of satisfactory
warning language that complied with the standards it
had set forth, it chose (and even lauded as “exemplary”) the standard warning that was given by the
Federal Bureau of Investigation (FBI). Miranda, 384
US at 483. This is important because the FBI’s practice
was to give only the general warning “that the person
has . . . a right to counsel,” which included no information regarding when the right applied. Id. at 484.4
As courts have recognized, Miranda’s various
statements thus create some ambiguity.5 And, while it
“must be warned prior to any questioning that . . . he has the right
to the presence of an attorney.”); see generally United States v
Clayton, 937 F3d 630, 639 (CA 6, 2019) (discussing the ambiguity
surrounding Miranda’s use of “presence”); Commonwealth v
LaJoie, 95 Mass App 10, 15 (2019) (“But when it came time to
summarize what a suspect needed to be told, the Miranda opinion
did not formulate the warning in terms of a right to counsel
‘during questioning’; rather, the Court in Miranda used the
language, the ‘right to the presence of an attorney,’ without any
temporal component.”).
4
The warning given more recently by the FBI is more
specific. See FBI, Legal Handbook for Special Agents (2003), p 93
(quoting Form FD-395, which notes the person’s right to “talk to
a lawyer for advice before” questioning, to “have a lawyer with
[him or her] during questioning,” and to have a lawyer appointed
before questioning if the suspect cannot afford one), available at
(accessed May 29, 2020) [https://perma.cc/NK9W-35PF].
5
This point was not lost on the dissenters, who questioned
how the FBI’s warnings squared with the other statements in the
majority’s decision. See, e.g., id. at 500 n 3 (Clark, J., concurring
in the result of a companion case and dissenting in Miranda)
(noting that the FBI’s warning regarding appointment of counsel
was not as broad as the rule expressed by the majority); id. at 521
(Harlan, J., dissenting) (stating that while “[h]eaviest reliance is

App. 9
appears the discussion of the FBI warnings was not
necessary to decide the case,6 the bottom line is that
the Court specifically approved a warning that lacked
any explicit reference to the time when the right to
counsel attached, i.e., that it attached before or during
the interrogation. The Sixth Circuit Court of Appeals
explained it well:
To be sure, Miranda clarified that “presence”
includes the right to consult with an attorney
before and during questioning. But Miranda
did not require a warning exactly to that
effect. Case in point: Miranda acknowledged
that the warnings employed by the FBI at the
time of its decision were “consistent with the
procedure which we delineate today.” And
those warnings, while advising of the right to
counsel, conspicuously did not state expressly
that counsel may be present during interrogation. [United States v Clayton, 937 F3d
630, 639 (CA 6, 2019) (citation omitted).]
placed on the FBI practice, . . . the FBI falls sensibly short of the
Court’s formalistic rules.”).
6
See Miranda, 384 US at 521 n 19 (Harlan, J., dissenting)
(noting that this portion of the opinion was “obiter dictum”). To
the extent this portion of Miranda was dicta, it had plentiful
company in the opinion, much of which has been followed as
binding nonetheless. See Faheem-El v Klincar, 841 F2d 712, 730
(CA 7, 1988) (Easterbrook, J., concurring) (“The details of
Miranda . . . could be disregarded [as dicta] on the ground that
Ernesto Miranda had not been given any warning, so the Court
could not pronounce on the consequences of giving three but not
four of the warnings on its list.”). As I explain below, however,
even if dicta, the passages on the FBI warnings are particularly
meaningful.

App. 10
See also United States v Lamia, 429 F2d 373, 376-377
(CA 2, 1970) (relying on Miranda’s approval of the FBI
warnings); cf. People of Territory of Guam v Snaer, 758
F2d 1341, 1342 (CA 9, 1985) (“The Supreme Court in
Miranda . . . , although making clear that one does
have the right to consult with counsel before questioning, . . . is ambiguous as to how explicitly the person
must be warned of that right.”). And Miranda was not
the only time the Supreme Court has endorsed a
general advisement of the right to an attorney bereft
of any temporal elements. In Oregon v Elstad, 470 US
298, 315 n 4 (1985), which addressed other issues, the
Court stated that a warning that the suspect had the
right to “consult an attorney at state expense” was
“clear and comprehensive” and a part of a “careful
administering of Miranda warnings.”
In other cases, the Supreme Court has approved
warnings that offered less than was encompassed in
Miranda’s more expansive passages. These cases
instead focus on whether the warnings indicated
limitations on the right to counsel. In California v
Prysock, for example, the Court approved a warning
that the defendant had a “right to talk to a lawyer
before [being] questioned.” Prysock, 453 US at 356.
Miranda was satisfied because “nothing in the warnings . . . suggested any limitation on the right to the
presence of appointed counsel different from the
clearly conveyed rights to a lawyer in general[.]” Id. at
360-361. Similarly, in Duckworth v Eagan, the defendant had been warned, “You have a right to talk to a
lawyer for advice before we ask you any questions, and

App. 11
to have him with you during questioning. . . . We have
no way of giving you a lawyer, but one will be appointed
for you, if you wish, if and when you go to court.”
Duckworth, 492 US at 198 (emphasis and quotation
marks omitted). The Court concluded that those warnings, when taken together, satisfied Miranda because
they informed the defendant of his rights and did not
specifically inform defendant that the right to counsel
only attached during trial. Id. at 204-205. Most recently, in Florida v Powell, the Court upheld a warning
that informed the defendant of his right to “talk to a
lawyer before answering any of our questions” and that
he could invoke his rights at any time but did not
expressly state that the defendant could have the
lawyer present during the interrogation. Powell, 559
US at 54 (quotation marks omitted). A commonsense
interpretation of the warning, the Court concluded,
conveyed the defendant’s rights. Id. at 62-64.
Among other courts, a split exists over whether
the advisement must expressly mention that the right
to a lawyer applies before or during the interrogation.7
Some courts have concluded that the right to have an
attorney present at these times is independently
7

See generally McMahon, Necessity That Miranda Warnings
Include Express Reference to Right to Have Attorney Present
During Interrogation, 77 ALR Fed 123 (2020 update) (collecting
and commenting on cases discussing presence of attorney during
the interrogation); Comment, Adding (Or Reaffirming) A
Temporal Element to the Miranda Warning “You Have the Right
to an Attorney,” 90 Marq L Rev 1009, 1019-1024 (2007) (noting
the circuit split as well as intracircuit conflict and tracing the
source to Miranda’s disparate statements).

App. 12
critical and not adequately conveyed by a notice that
mentions neither period or only one but not the other.
See, e.g., United States v Noti, 731 F2d 610, 615 (CA 9,
1984) (“There are substantial practical reasons for
requiring that defendants be advised of their right to
counsel during as well as before questioning.”).8

8

See also United States v Tillman, 963 F2d 137, 141 (CA 6,
1992) holding that a general warning was inadequate because
“the police failed to convey to defendant that he had the right to
an attorney both before, during and after questioning”); United
States v Anthon, 648 F2d 669, 672 (CA 10, 1981) (holding that a
warning which failed to, among other things, “advise[ ] that [the
defendant’s] right to counsel encompassed . . . the right to have
counsel present during any questioning” violated Miranda);
Windsor v United States, 389 F2d 530, 533 (CA 5, 1968) (“Merely
telling [an individual being questioned] that he could speak with
an attorney or anyone else before he said anything at all is not
the same as informing him that he is entitled to the presence of
an attorney during interrogation. . . .”); State v Serna, 2018NMCA-074, ¶ 21 (NM App, 2018) (concluding “that Miranda
requires that a person be warned, at least implicitly, that they
have a right to counsel prior to questioning” and finding that no
such warning was given in the case); cf. United States v Wysinger,
683 F3d 784, 798-800 (CA 7, 2012) (concluding that a warning
appearing to give the defendant a choice of when he could have a
lawyer—that he “had the ‘right to talk to a lawyer for advice
before we ask any questions or have . . . an attorney with you
during questioning’ ”—violated Miranda); State v McNeely, 162
Idaho 413, 414, 416-417 (2017) (concluding that an advisement of
a “right to an attorney . . . [t]o help you with—stuff ” did not
satisfy Miranda).
Some of these cases warrant additional comment, as the state
of the law in these circuits is not entirely clear. Recently, the
Sixth Circuit has explained that other errors in Tillman—
specifically, the failure to advise that the defendant’s statements
could be used against him—were the thrust of the case, and thus
its brief comment on the warning related to the attorney was “not

App. 13
Other cases, however, find that general warnings—i.e., those that do not expressly describe part or
all of the temporal scope of the right to counsel—suffice. These courts have offered compelling reasons that
reflect the Supreme Court’s commonsense approach
and that I find more persuasive. One threshold factor
that courts have found significant is whether a suspect
was given preinterrogation notice “that the warnings
that followed were a prerequisite to any interrogation. . . .” Carter v People, 398 P3d 124, 128 (Colo,
2017). At a more fundamental level, these courts
embrace the unremarkable proposition that because
“an unqualified statement lacks qualifications, all that
police officers need do is convey the general rights
enumerated in Miranda.” United States v Frankson, 83
F3d 79, 82 (CA 4, 1996). In other words, advising of the
“right to counsel,” without qualifications, conveys that
the right obtains before and during the interrogation.9
persuasive.” Mitchell v MacLaren, 933 F3d 526, 535 (CA 6, 2019)
(habeas proceedings). Additionally, the Ninth Circuit has
subsequently held that a defendant “need not have been informed
explicitly of his right to consult with counsel prior to questioning”
when the warning adequately conveyed that right by stating he
could have counsel appointed before the interrogation and
present with him during it. United States v Loucious, 847 F3d
1146, 1151 (CA 9, 2017); see also Sweeney v United States, 408
F2d 121, 124 (CA 9, 1969) (finding sufficient a general warning
that the defendant “was entitled to an attorney” because
“following, as it did, immediately on the warning as to the right
to remain silent and the risk in not doing so, would, we think, be
taken by most persons to refer to the contemplated interrogation,
not to some other time”).
9
See United States v Caldwell, 954 F2d 496, 502 (CA 8, 1992)
(“When the only claimed deficiency is that of generality, the

App. 14
A related factor in these cases is that the warnings did
not express “any temporal limitation that might even
colorably be misunderstood to restrict the exercise of
teaching of Duckworth that we are not construing a will or
defining the terms of an easement convinces us that we cannot
hold the warning in this case amounts to plain error.”); Lamia,
429 F2d at 376-377 (“Lamia had been told without qualification
that he had the right to an attorney and that one would be
appointed if he could not afford one. Viewing this statement in
context, Lamia having just been informed that he did not have to
make any statement to the agents outside of the bar, Lamia was
effectively warned that he need not make any statement until he
had the advice of an attorney.”) (emphasis added); cf. State v
Figueroa, 146 A3d 427, 432 (Me, 2016) (noting, where the advisement referenced that the defendant already had an attorney, a
general warning of “a right to an attorney” was “communicated
an unqualified right to counsel” that could be invoked at any
time).
This conclusion—that unqualified statements do not expressly or impliedly convey qualifications—not only comports with
common sense, but it also makes sense under a well-known
linguistic theory of conversation developed by H. P. Grice. He
posited that participants in conversations generally adhere to the
maxim of “Quantity,” by which they expect that the information
contained in statements will “be neither more nor less than is
required.” Grice, Logic and Conversation, in 3 Syntax and
Semantics: Speech Acts (New York: Academic Press, 1975), p 47.
This means that contributions to the conversation will not be
“overinformative” because “overinformativeness may be confusing in that it is liable to raise side issues; and there may also be
an indirect effect, in that the hearers may be misled as a result of
thinking that there is some particular POINT in the provision of
the excess of information.” Id. at 46. Thus, for example, the statement “Jane has two children” does not implicate that Jane has
more than two children, even though the statement would remain
true if she had a third child. Kaplan, Linguistics and Law (New
York: Routledge, Taylor & Francis Group, 2020), p 7. In the same
way, an unconditioned assertion that a suspect has the right to
counsel does not implicate a temporal restriction on the right.

App. 15
[the] right” to counsel in the interrogation. Carter, 398
P3d at 127.10 Even so, the mere possibility of misunderstanding does not disqualify the warning, as the
advisement in Powell was upheld despite risking
confusion as to whether the right pertained to the
interrogation itself. Id.11 And, critically, this group of
cases also cites Miranda’s approval of the FBI
warnings. See Clayton, 937 F3d at 639.12 This approach
thus trusts that Miranda meant what it said regarding
the FBI warnings. As I explain below, this is the proper
way to interpret Miranda. Under these rationales,
numerous courts have upheld advisements like that in

10

See also United States v Warren, 642 F3d 182, 186 (CA 3,
2011) (“[The defendant] offers no rationale for a reasonable
person’s belief that the clear, unmodified statement ‘[y]ou have
the right to an attorney’ would be regarded as time-limited.”);
State v King, ___ So3d ___, ___ (La, 2020) (Case No. 2019-KK01332), slip op at 6-7 (“The unelaborated upon warning given in
the present case, which lacked any temporal aspect at all, implied
no limitation on the right to counsel.”).
11
Justice Stevens’s dissent in Powell recognized this fact,
stating that although he was “doubtful that warning a suspect of
his ‘right to counsel,’ without more, reasonably conveys a
suspect’s full rights under Miranda, . . . at least such a general
warning does not include the same sort of misleading temporal
limitation as in Powell’s warning.” Powell, 559 US at 73 n 8
(Stevens, J., dissenting).
12
See also Warren, 642 F3d at 185 (noting that, in light of
Miranda’s use of the FBI advisement, “it cannot be said that the
Miranda court regarded an express reference to the temporal
durability of this right as elemental to a valid warning”).

App. 16
the present case, i.e., without any express reference to
the temporal scope of the right to counsel.13

13

See United States v Nash, 739 F Appx 762, 765 (CA 4,
2018) (“[T]he phrase ‘you have a right to an attorney,’ under these
circumstances, sufficiently advised Nash of his general right to
consult with an attorney before and during the interrogation.”);
Frankson, 83 F3d at 81-82 (upholding advisement of “the right to
an attorney”); United States v Adams, 484 F2d 357, 361 (CA 7,
1973) (finding sufficient a warning that the suspect had the “right
to counsel, and if they haven’t got funds to have counsel, . . . the
court will see that they are properly defended”) (quotation marks
omitted); Lamia, 429 F2d at 377-378 (upholding warning that
defendant had the “right to an attorney”); King, ___ So 3d at ___,
slip op at 6-7 (holding that similar warning, without temporal
elements, sufficed); State v Nave, 284 Neb 477, 495 (2012) (citing
with approval the court’s past cases upholding warnings that
made no mention of a “temporal element” or mentioned only the
right to have counsel at the interrogation); Eubanks v State, 240
Ga 166, 168 (1977) (“It is implicit in this [general] instruction [of
the “right to an attorney” along with the other basic rights] that
if the suspect desired an attorney the interrogation would cease
until an attorney was present.”); People v Walton, 199 Ill App 3d
341, 344 (1990) (finding that specifically informing the suspect
“that he ‘had a right to consult with a lawyer’ ” reasonably
conveyed the rights as mandated by Miranda); cf. Figueroa, 146
A3d at 432 (concluding that a general warning was sufficient
under the circumstances and noting that the advisement also
indicated that the defendant already had an attorney).
Other courts have upheld similar, but slightly more detailed
warnings. See Warren, 642 F3d at 184, 186-187 (upholding warning that “You have the right to an attorney. If you cannot afford
to hire an attorney, one will be appointed to represent you without
charge before any questioning if you wish”) (quotation marks
omitted); Rigterink v State, 66 So 3d 866, 893 (Fla, 2011) (“Hence,
by advising Rigterink that he may have counsel ‘present prior to
questioning,’ the police reasonably conveyed to Rigterink . . . that
counsel, if Rigterink so desired, would have been ‘present’ with
Rigterink both before and during the custodial interrogation.”);

App. 17
My conclusion is also supported by the fact that
temporal details are not required to impart the
warning concerning the paramount right to remain
silent. Even Miranda’s most detailed renditions of the
warnings never suggested that the police had to specify when a suspect could exercise the unqualified “right
to remain silent.” See, e.g., Miranda, 384 US at 444,
467-468, 479. That an unqualified statement reasonably conveys the full breadth of the right to remain
silent suggests that the same is enough for the right to
an attorney: the former right is at the core of
Miranda’s protection, whereas the latter is a means of
protecting that core right.14 Thus, it would make little
sense, linguistically or logically, to demand additional
details about the auxiliary right but not the fundamental right it was designed to protect. Cf. Carter, 398 P3d
at 128 (“[I]t would be highly counterintuitive for a
reasonable suspect in a custodial setting, who has just
been informed that the police cannot talk to him until
after they advise him of his rights to remain silent and
LaJoie, 95 Mass App at 11, 16-17 (upholding warning that the
defendant had the right to counsel and if he could not afford one,
an attorney would be appointed “prior to any questioning”)
(quotation marks omitted).
14
See Miranda, 384 US at 469 (explaining that the Court’s
“aim” in requiring a warning about the right to counsel “is to
assure that the individual’s right to choose between silence and
speech remains unfettered throughout the interrogation
process”); Adding (Or Reaffirming) A Temporal Element to the
Miranda Warning, 90 Marq L Rev at 1027 (“[T]he package of
[Miranda] warnings is intended to convey to the suspect that he
does not have to talk if he does not desire to. The attorney’s
presence is only a means to an end, not an end in itself ” because
it “safeguard[s] the suspect’s right to remain silent.”).

App. 18
to have an attorney, to understand that an interrogation may then proceed without permitting him to
exercise either of those rights.”). Indeed, even the
Court of Appeals in this case found that the police did
not need to specifically inform defendant that she was
able at any time to invoke her right to remain silent.
See Mathews, 324 Mich App at 428, quoting Miranda,
384 US at 467-468 (“An individual who has been
informed in ‘clear and unequivocal terms’ at the outset
of the interrogation that ‘he has the right to remain
silent’ will understand ‘that his interrogators are
prepared to recognize his privilege should he choose to
exercise it.’ ”). Consequently, I believe that an unqualified statement, unadorned with temporal components,
is sufficient to advise a person of both rights.
III
In the present case, I conclude that the general
warning defendant received satisfied Miranda. Defendant was given a form at the outset that notified her
the warnings were necessary “[b]efore any questions
are asked of you.” She then received, both on the form
and verbally, advisement of an unqualified right to an
attorney. Nothing was said that could have misled a
reasonable person as to the scope of that right or
suggested that it applied only at certain stages of the
interrogation or judicial processes. Rather, a commonsense understanding of the warnings would lead one to

App. 19
believe that the right to an attorney could be invoked
at any time.15
But even more important, to my mind, is that
Miranda approved of FBI warnings no more detailed
than the ones administered here and the Court has
never required more since Miranda.16 Thus, the Court
of Appeals’ decision below stands for the proposition
that warnings like those approved in Miranda actually
violate Miranda. Instead of second-guessing Miranda,
I would take the Supreme Court at its word on whether
this way of phrasing the warning is permissible.17
15

I concede that the warnings here could have been more
explicit. However, it is up to the policy-making branches to adopt
or require best practices; courts may only determine which
practices pass constitutional muster. See Walton, 199 Ill App 3d
at 344-345 (“While the better practice would be for the police to
make explicit that defendant’s right to consult with a lawyer may
be both before and during any police interrogation, we hold that
the language used in this case [that the defendant had a right to
consult with a lawyer] was sufficient to imply the right to
counsel’s presence during questioning” because “no restrictions
were stated by the police in the present case as to how, when, or
where defendant might exercise his right ‘to consult with a
lawyer.’ ”).
16
And it has passed on more than one opportunity to reverse
courts that have upheld general warnings that contain partial or
no express temporal components, including very recently. See
Carter v Colorado, 583 US ___; 138 S Ct 980 (2018); Warren v
United States, 564 US 1012 (2011).
17
The Court of Appeals acknowledged the tension in
Miranda produced by the discussion of the FBI warnings.
Mathews, 324 Mich App at 437 n 7. Nonetheless, the Court of
Appeals thought the statements concerning the FBI warnings
mattered little because they were “immediately followed by a
discussion of the then-current practices in” various other
countries and military courts and came “in the larger context of

App. 20
Demanding anything more elaborate, as the Court of
Appeals did here, exceeds what Miranda required and
is therefore not an application but an extension of the
case’s holding.
In taking the narrower reading of Miranda, I am
guided by first principles. I am not the first to notice
that the rule crafted in Miranda lacks a discernable
relationship to the actual text and original meaning of
the Constitution.18 Of course, Supreme Court caselaw
is binding and must be faithfully applied. Abela v Gen
Motors Corp, 469 Mich 603, 606 (2004). But if a fair
reading of the precedent does not resolve the issue we
responding to concerns” about the practical cost of the warnings.
Id. The positioning of the discussion, however, does nothing to
negate Miranda’s clear statements approving the FBI warnings,
most notably that the FBI’s “present pattern of warnings and
respect for the rights of the individual . . . is consistent with the
procedure which we delineate today.” Miranda, 384 US at 483484.
18
See Dickerson v United States, 530 US 428, 448 (Scalia, J.,
dissenting) (“[T]he decision in Miranda, if read as an explication
of what the Constitution requires, is preposterous.”); Markman,
Miranda v Arizona: A Historical Perspective, 24 Am Crim L Rev
193, 241 (1987) (“Perhaps more than any Supreme Court decision
preceding it, Miranda found the Court straying from the
moorings of both the Constitution and the traditionally conceived
judicial role to craft detailed, code-like prescriptions governing
criminal justice. The Miranda decision had no basis in history or
precedent but reflected, rather, a departure from the authoritative sources of law.”); see generally Amar, The Constitution and
Criminal Procedure: First Principles (New Haven: Yale University Press, 1997), pp 48-49 (“Modern understandings of the [Fifth
Amendment self-incrimination] clause deviate far from its early
American implementation, from plain meaning, and from common sense.”).

App. 21
face, we have the power and the responsibility to decide the issue for ourselves. We are under no obligation
to extend the scope of a precedent to cover the matter
at hand, especially when, as here, the Supreme Court
has already signaled its approval of the practice.
I would not extend a decision like Miranda unless
the extension can be independently justified under the
proper interpretive approach, that is, unless the
extension is required by the Constitution’s original
meaning.19 It is no easy task, however, to discern
original meaning in an area where the caselaw has
long since been uncoupled from that meaning. Here, for
example, the interpretive endeavor required by
Miranda revolves around a specific set of warnings
promulgated by the Court. A judge’s traditional tools
of textual and historical inquiry mean little in this
analytical framework. Does the text of the Fifth
Amendment, as originally understood, require the
conclusion that a person has been “compelled . . . to be
19

See Blackman, Originalism and Stare Decisis in the Lower
Courts, 13 NYU J L & Liberty 44, 51 (2019) (arguing that
originalist lower court judges “should only extend a Supreme
Court precedent if the original meaning of the Constitution can
support that extension”); cf. Garza v Idaho, 586 US ___, ___; 139
S Ct 738, 756 (2019) (Thomas, J., dissenting) (noting that the
Court should “tread carefully before extending our precedents”
when they do not reflect the Constitution’s original meaning);
Free Enterprise Fund v Public Co Accounting Oversight Bd, 383
US App DC 119, 150 (2008) (Kavanaugh, J., dissenting) (“We
should resolve questions about the scope of . . . precedent[ ] in
light of and in the direction of the constitutional text and
constitutional history.”), aff ’d in part and rev’d in part 561 US
477 (2010).

App. 22
a witness against himself ” on the basis of statements
he made without first being explicitly warned that he
has a right to consult an attorney before and during
custodial interrogation? Certainly, no one in this case
has offered such an argument, and accordingly I will
not assay an answer. Merely posing the question
demonstrates the need for caution in this area.20
For these reasons, I would not extend Miranda to
provide that preinterrogation warnings must expressly
advise of the right to counsel before and during the
questioning. It is enough that a suspect, like defendant
here, be notified of her unqualified right to counsel.
IV
In denying leave in this case, the Court declines to
exercise the proper measure of circumspection that the
issue requires and instead submits, without comment,
to the Court of Appeals’ extension of Miranda in a
published opinion. I disagree that the warnings here
were deficient under Miranda, and I would not extend
that decision to prohibit these warnings. Accordingly, I
believe the Court of Appeals’ decision should be
reversed, and I therefore respectfully dissent.

20

Absent an analysis of original meaning—either in
Miranda itself or with regard to its extension—this Court is
forced to consult Miranda’s text rather than the Constitution’s
text. Thus, even though the Court’s comments on the FBI
warnings could be cast off as unnecessary to the decision, they
take on more significance since they are all we have to work with
in this situation.

App. 23
MARKMAN and ZAHRA, JJ., join the statement of
VIVIANO, J.

App. 24
STATE OF MICHIGAN
COURT OF APPEALS
PEOPLE OF THE
STATE OF MICHIGAN,
Plaintiff-Appellant,
v.
LARICCA SEMINTA
MATHEWS,

FOR PUBLICATION
May 22, 2018
9:10 a.m.
No. 339079
Oakland Circuit Court
LC No. 2016-260482-FC

Defendant-Appellee.
Before: O’CONNELL, P.J., and HOEKSTRA and K. F. KELLY,
JJ.
HOEKSTRA, J.
Defendant has been charged with open murder,
MCL 750.316, discharge of a firearm in a building,
MCL 750.234b, and two counts of possession of a firearm during the commission of a felony, MCL 750.227b.
Before trial, defendant filed a motion to suppress
statements she made to police based on the contention
that the police failed to adequately advise her of her
rights as required by Miranda v. Arizona, 384 US 436;
86 S Ct 1602; 16 L Ed 2d 694 (1966). The trial court
granted defendant’s motion. The prosecution filed an
interlocutory application for leave to appeal in this
Court, which we denied.1 The prosecutor then filed an
application for leave to appeal in the Michigan
1

People v. Mathews, unpublished order of the Court of
Appeals, entered August 23, 2017 (Docket No. 339079).

App. 25
Supreme Court, and in lieu of granting leave, the
Supreme Court remanded to this Court for consideration as on leave granted, specifically instructing this
Court “to consider whether either of the bases for
suppression advanced by the defendant in the trial
court rendered the warnings in this case deficient”
under Miranda. People v. Mathews, 501 Mich 950, 950
(2018). On remand, we find no merit to defendant’s
assertion that the police were required to inform her
that she could cut off questioning at any time during
the interrogation. However, because generally advising
defendant that she had “a right to a lawyer” did not
sufficiently convey her right to consult with an
attorney and to have an attorney present during the
interrogation, we conclude that the Miranda warnings
in this case were defective and affirm the trial court’s
suppression of defendant’s statement.
This case arises from the shooting death of defendant’s boyfriend, Gabriel Dumas, who was killed in
defendant’s apartment on August 12, 2016. After the
shooting, defendant called 911 and told the dispatcher
that she had shot Dumas. Police responded to the
scene, and defendant was taken into custody and transported to the Wixom Police Department. At the police
station, defendant was interviewed twice. Detective
Brian Stowinsky conducted the first interview. During
the first interview, Stowinsky presented defendant
with a written advice-of-rights form, which stated:
Before any questions are asked of you, you
should know: (1) you have a right to remain
silent; (2) anything you say may be used

App. 26
against you; (3) you have a right to a lawyer,
and (4) if you cannot afford a lawyer, one will
be provided free.
I understand what my rights are and am
willing to talk.
Stowinsky also orally reviewed the statements on the
advice-of-rights form with defendant. Specifically, the
following exchange took place:
[Detective Stowinsky]: Ok, um, I’m going to
review these, ok?
[Defendant]:

Uh hmm.

[Detective Stowinsky]:
these to you.
[Defendant]:

I’m going to read

Uh hmm.

[Detective
Stowinsky]: Um,
before
I
question, start asking you, you should know
that you have a right to remain silent.
[Defendant]:

Uh hmm.

[Detective Stowinsky]: Anything you say
maybe [sic] used against you. You have a right
to a lawyer, if you cannot afford a lawyer, one
will be provided for free. Do you understand
your rights?
[Defendant]:

Yes.

Defendant agreed to talk with Stowinsky, and she
signed the advice-of-rights form. During the questioning that followed, defendant told Stowinsky that she

App. 27
quarreled with Dumas, that Dumas attacked her, and
that she shot him.
Later the same day, defendant was interviewed a
second time by Sergeant Michael DesRosiers. At the
beginning of that second interview, the following exchange took place between defendant and DesRosiers:
[Sergeant DesRosiers]: Alright, so um, Detective Stowinsky, remember he talked about
your rights and everything?
[Defendant]:

Uh hmm.

[Sergeant DesRosiers]: Same thing applies.
Um, you don’t, you don’t have to even talk to
me if you don’t want to. You can get an
attorney um, if you can’t afford one, we’ll
make sure you get one.
[Defendant]:

Ok.

[Sergeant DesRosiers]: So, um, we’re just
continuing the interview that you started
with him.
DesRosiers then proceeded to question defendant
about inconsistencies between her previous statements and the physical evidence, including the location of Dumas’s fatal bullet wound. Defendant again
admitted shooting Dumas, and she attempted to
explain the location of the bullet wound by suggesting
that the bullet may have ricocheted. She also
suggested that the shooting may have been an accident
insofar as her finger may have “slipped” while on the
trigger because it was “so hot and muggy.”

App. 28
Following a preliminary examination, defendant
was bound over for trial in the circuit court. In the
circuit court, defendant moved to suppress her statements to the police, asserting that the Miranda
warnings given before her interviews were inadequate
because (1) the police failed to advise her that she
could terminate the interrogation at any point and (2)
the police did not inform her that she had the right to
consult with an attorney before the interview and to
have an attorney present during the interrogation. The
trial court did not address whether the police were
required to inform defendant that she had an ongoing
right to cut off questioning at any point. Nevertheless,
the trial court granted defendant’s motion to suppress,
reasoning that the Miranda warnings were defective
because the police failed to inform defendant that she
had the right to have an attorney present before and
during the interrogation. The prosecution filed an
interlocutory application for leave to appeal, and the
case is now before us on remand from the Michigan
Supreme Court for consideration as on leave granted.
On appeal, the prosecution argues that the warnings given to defendant complied with Miranda and
that the trial court erred by suppressing defendant’s
statements to police. First, with regard to a suspect’s
right to cut off questioning, the prosecution asserts
that Miranda does not require police to give an explicit
warning that a suspect may terminate the interrogation at any time. Second, in terms of a suspect’s right
to the presence of counsel, the prosecution argues that,
although the warnings given to defendant did not

App. 29
expressly advise her of her right to the presence of
counsel during the interrogation, the warnings given
before defendant’s interrogations were sufficient because they advised defendant that she had the right to
a lawyer. According to the prosecution, Miranda does
not require the police to provide a suspect with more
specific information regarding the right to the presence of an attorney before and during questioning.
When reviewing a decision on a motion to suppress, we review a trial court’s factual findings for clear
error. People v. Tanner, 496 Mich 199, 206 (2014). “To
the extent that a trial court’s ruling on a motion to
suppress involves an interpretation of the law or the
application of a constitutional standard to uncontested
facts, our review is de novo.” id. (quotation marks and
citation omitted). “We review de novo a trial court’s
ultimate decision on a motion to suppress.” People v.
Beuschlein, 245 Mich App 744, 748 (2001).
“Both the state and federal constitutions guarantee that no person shall be compelled to be a witness
against himself or herself.” People v. Cortez (On Remand), 299 Mich App 679, 691 (2013) (opinion by
METER, J.). To protect this constitutional guarantee
against compelled self-incrimination, before any
custodial interrogation, the police must give a suspect
the now-familiar Miranda warnings. People v. Daoud,
462 Mich 621, 624 n 1 (2000). In particular, under
Miranda, a suspect must be provided four essential
warnings as follows:

App. 30
“[A suspect] must be warned prior to any
questioning [1] that he has the right to remain
silent, [2] that anything he says can be used
against him in a court of law, [3] that he has
the right to the presence of an attorney, and
[4] that if he cannot afford an attorney one
will be appointed for him prior to any
questioning if he so desires.” [Florida v.
Powell, 559 US 50, 59-60; 130 S Ct 1195; 175
L Ed 2d 1009 (2010), quoting Miranda, 384
US at 479 (alterations by the Powell Court).]
“The four warnings Miranda requires are invariable, but [the United States Supreme Court] has not
dictated the words in which the essential information
must be conveyed.” Powell, 559 US at 60. In other
words, “[a] verbatim recital of the words of the Miranda opinion is not required.” People v. Hoffman, 205
Mich App 1, 14 (1994). “Quite the contrary, Miranda
itself indicated that no talismanic incantation was
required to satisfy its strictures.” California v. Prysock,
453 US 355, 359; 101 S Ct 2806; 69 L Ed 2d 696 (1981).
Rather, when the “exact form” set out in Miranda is not
used, “a fully effective equivalent” will suffice. Duckworth v. Eagan, 492 US 195, 202; 109 S Ct 2875; 106
L Ed 2d 166 (1989) (quotation marks and emphasis
omitted). “Reviewing courts therefore need not examine Miranda warnings as if construing a will or
defining the terms of an easement.” id. at 203. “The
inquiry is simply whether the warnings reasonably
‘conve[y] to [a suspect] his rights as required by Miranda.’ ” id., quoting Prysock, 453 US at 361 (alterations
by the Duckworth Court). Ultimately, “[i]f the custodial

App. 31
interrogation is not preceded by an adequate warning,
statements made during the custodial interrogation
may not be introduced into evidence at the accused’s
criminal trial.” People v. Elliott, 494 Mich 292, 301
(2013).
A.

RIGHT TO CUT OFF QUESTIONING

In the trial court, defendant challenged the adequacy of the Miranda warnings on two grounds. First,
defendant argued that the right to cut off questioning
is a “critical safeguard” under Miranda and that the
police were thus required to warn defendant that she
could cease answering questions at any point.
Although the police informed defendant of her right to
remain silent, she asserts that her statement must be
suppressed because she was not more specifically
informed that she could terminate the interrogation at
any time. This argument is without merit.
As noted, Miranda requires the police to provide a
suspect with four—and only four—essential warnings:
“[1] that he has the right to remain silent, [2] that
anything he says can be used against him in a court of
law, [3] that he has the right to the presence of an
attorney, and [4] that if he cannot afford an attorney
one will be appointed for him prior to any questioning
if he so desires.” Powell, 559 US at 59-60 (quotation
marks and citation omitted; alterations by the Powell
Court). See also United States v. Crumpton, 824 F3d

App. 32
593, 611 (CA 6, 2016).2 From a simple review of these
warnings, it is clear that the right to cut off questioning
is not among the specific enumerated warnings that
must be given.3 See United States v. Ellis, 125 Fed
App’x 691, 699 (CA 6, 2005) (“[A] statement instructing
[a suspect] that he has the right to stop answering
questions at any point after questioning has begun, is
not a phrase that the Supreme Court in Miranda
suggested should be read to criminal suspects before
interrogation.”). It is true that, as emphasized by
defendant, “a ‘critical safeguard’ identified in Miranda
was a person’s right to cut off questioning.” People v.
Adams, 245 Mich App 226, 231; 627 NW2d 623 (2001),
quoting Michigan v. Mosley, 423 US 96, 103; 96 S Ct
321; 46 L Ed 2d 313 (1975). As explained in Miranda:
Once warnings have been given, the subsequent procedure is clear. If the individual
2

“Lower federal court decisions are not binding on this
Court, but may be considered on the basis of their persuasive
analysis.” People v. Fomby, 300 Mich App 46, 50 n 1; 831 NW2d
887 (2013).
3
It is apparently not uncommon for law enforcement officials
to include some type of “fifth prong” or “catch-all” provision in the
recitation of Miranda warnings, advising suspects that their
rights may be asserted at any point during the interrogation. See
Rogers et al., The Language of Miranda Warnings in American
Jurisdictions: A Replication and Vocabulary Analysis, 32 Law &
Human Behavior 124, 131 (2008) (reporting that over 80% of
jurisdictions include a “fifth prong”). See, e.g., Powell, 559 US at
55 (involving a catch-all addition to the Miranda warnings in
which the suspect was told that he had “the right to use any of
these rights at any time you want during this interview”)
(quotation marks omitted). But the fact remains that Miranda
itself did not include such a warning.

App. 33
indicates in any manner, at any time prior to
or during questioning, that he wishes to
remain silent, the interrogation must cease.
At this point he has shown that he intends to
exercise his Fifth Amendment privilege; any
statement taken after the person invokes his
privilege cannot be other than the product of
compulsion, subtle or otherwise. Without the
right to cut off questioning, the setting of incustody interrogation operates on the individual to overcome free choice in producing a
statement after the privilege has been once
invoked. [Miranda, 384 US at 473-474
(emphasis added).]
However, contrary to defendant’s arguments, this “subsequent procedure” to cut off questioning as described
in Miranda does not establish a “special warning
requirement” regarding the right to terminate an
interrogation. People v. Tubbs, 22 Mich App 549, 555556; 177 NW2d 622 (1970).4 Instead, this right to end
the interrogation is merely a means of exercising the
right to remain silent. See id.; United States v. Alba,
732 F Supp 306, 310 (D Conn, 1990) (“The right to cut
off questioning is not one of the essential Fifth
Amendment rights”; rather, it is “a way in which [a
suspect] might have manifested his wish to invoke his
right to remain silent.”). An individual who has been
informed in “clear and unequivocal terms” at the
4

Although published decisions of this Court issued before
November 1, 1990, are not precedentially binding, MCR 7.215(J)(1),
they may be considered as persuasive authority. People v. Barbarich,
291 Mich App 468, 476 n 2; 807 NW2d 56 (2011).

App. 34
outset of the interrogation that “he has the right to
remain silent” will understand “that his interrogators
are prepared to recognize his privilege should he
choose to exercise it.” Miranda, 384 US at 467-468. See
also Colorado v. Spring, 479 US 564, 574; 107 S Ct. 851;
93 L Ed 2d 954 (1987) (recognizing that a suspect
advised of his Miranda warnings “knows that he may
choose not to talk to law enforcement officers, to talk
only with counsel present, or to discontinue talking at
any time”). Consequently, when a defendant has been
advised of his or her right to remain silent as required
by Miranda, the police need not also expressly inform
the defendant that this right to remain silent may be
exercised to cut off questioning at any point during the
interrogation. See Tubbs, 22 Mich App at 555-556; see
also Crumpton, 824 F3d at 611 (“[A] defendant need
not be informed of a right to stop questioning after it
has begun.”) (quotation marks and citation omitted);
United States v. Lares-Valdez, 939 F2d 688, 690 (CA 9,
1991) (“Miranda requires that [the suspect]
understood the right to remain silent; when and how
he then chose to exercise that right is up to him.”).
Because defendant was advised of her right to remain
silent, the Miranda warnings were not defective
merely because she was not more specifically advised
that she could exercise this right at any point during
the interrogation.
B. RIGHT TO THE PRESENCE OF AN ATTORNEY
In the lower court, defendant argued and the trial
court agreed, that a general warning regarding the

App. 35
“right to a lawyer” did not adequately inform defendant of her right to have an attorney present before
and during the interrogation. Although there is conflicting authority on this issue, we agree with the trial
court and we hold that a general warning regarding a
“right to a lawyer” does not comply with the dictates of
Miranda. Consequently, we affirm the trial court’s
suppression of defendant’s statements.
We begin our analysis by again noting what is
required by Miranda. As explained by the United
States Supreme Court:
“[A suspect] must be warned prior to any
questioning [1] that he has the right to remain
silent, [2] that anything he says can be used
against him in a court of law, [3] that he has
the right to the presence of an attorney, and
[4] that if he cannot afford an attorney one
will be appointed for him prior to any
questioning if he so desires.” [Powell, 559 US
at 59-60, quoting Miranda, 384 US at 479
(alterations by the Powell Court).]
It is the third warning—the “right to the presence of
an attorney”—that is at issue in this case. Under
Miranda, in the context of custodial interrogation, the
right to the presence of counsel was recognized as “indispensable to the protection of the Fifth Amendment
privilege. . . .” Miranda, 384 US at 469. As “a corollary
of the right against compelled self-incrimination,” the
right to the presence of counsel “affords a way to
‘insure that statements made in the governmentestablished atmosphere are not the product of

App. 36
compulsion.’ ” Tanner, 496 Mich at 207, quoting Miranda, 384 US at 466. Notably, this “need for counsel to
protect the Fifth Amendment privilege comprehends
not merely a right to consult with counsel prior to
questioning, but also to have counsel present during
any questioning if the defendant so desires.” Miranda,
384 US at 470. Thus, “as ‘an absolute prerequisite to
interrogation,’ ” the United States Supreme Court has
held that “an individual held for questioning ‘must be
clearly informed that he has the right to consult with
a lawyer and to have the lawyer with him during
interrogation.’ ” Powell, 559 US at 60, quoting
Miranda, 384 US at 471.
Recognizing that Miranda mandates advice regarding the right to the presence of counsel, while also
acknowledging that a talismanic incantation of the
Miranda warnings is not required, Prysock, 453 US at
359, the question before us in this case is whether a
general warning before an interrogation advising the
suspect that he or she has a “right to a lawyer,”
reasonably conveys to a suspect that she has the right
to consult with a lawyer before questioning and to have
a lawyer present during the interrogation. We are not
aware of any binding caselaw resolving this issue. On
appeal, the prosecutor asserts that specific information
regarding the right to the presence of counsel during
interrogation is unnecessary in light of controlling
United States Supreme Court precedent—namely,
Powell, 559 US 50; Duckworth, 492 US 195; and Prysock, 453 US 355. Certainly, as discussed, these cases
stand for the proposition that no exact, talismanic

App. 37
incantation of the Miranda warnings is required. See
Powell, 559 US at 60; Duckworth, 492 US at 202;
Prysock, 453 US at 359. But, none of these cases
involved a barebones warning that the suspect had “a
right to an attorney.” To the contrary, Prysock and
Duckworth both involved situations in which the
suspect was undoubtedly told of the right to consult
with an attorney and to have an attorney present
during questioning, and the Miranda challenge related
to whether information, or lack of information, regarding when counsel would be appointed rendered
the warnings deficient. See Duckworth, 492 US at 203
(reviewing a warning in which the suspect was told, in
part, that “he had the right to speak to an attorney
before and during questioning” and that he had the
“right to the advice and presence of a lawyer even if [he
could] not afford to hire one”) (quotation marks
omitted; alteration by the Duckworth Court); Prysock,
453 US at 356 (involving a warning in which the
suspect was told that he had “the right to talk to a
lawyer before you are questioned, have him present
with you while you are being questioned, and all
during the questioning”). Powell is perhaps the closest
factual situation to the present case, but it, too, is
distinguishable. In Powell, the suspect was told, in
relevant part:
You have the right to talk to a lawyer before
answering any of our questions. If you cannot
afford to hire a lawyer, one will be appointed
for you without cost and before any questioning. You have the right to use any of these

App. 38
rights at any time you want during this
interview. [Powell, 559 US at 54.]
The purported deficiency in the warnings in Powell
was that informing the suspect that he had a right to
talk to a lawyer before answering questions would
mislead a suspect by suggesting that the right to
consult an attorney did not also exist during the
interrogation. Id. at 55. In rejecting this argument, the
Court read the warning as a whole and concluded that
the warning communicated that the suspect could
consult with a lawyer “before” answering questions
and that, because this right could also be used at any
time “during” the interview, it also conveyed the
suspect’s right to have an attorney present at all
times.5 Powell, 559 US at 62. The warning in Powell
5

The dissent emphasizes that the warnings given to defendant in this case were prefaced with the word “before,” and the
dissent concludes that this was sufficient to convey to defendant
her right to an attorney before questioning as well as during
questioning. This reliance on the word “before” is unpersuasive
for two reasons. First, the word “before” is not used in the
warnings as an indication of when defendant’s right to counsel
exists. That is, she was not told that she had a right to an attorney
before questioning; rather, she was told that before any questions
were asked, she should know that she has a right to an attorney.
Second, even if the use of “before” is read to have informed
defendant of her right to counsel before questioning, contrary to
the dissent’s conclusion, there is a meaningful difference between
the right to consult a lawyer before questioning and the right to
have a lawyer present during questioning. Indeed, the warning in
Powell was found adequate because it conveyed the right to
counsel, “not only at the outset of interrogation, but at all times”
during the interrogation. Powell, 559 US at 62. If anything, the
argument could be made that the use of the term “before,” without
any indication that the right also applied during the

App. 39
thus plainly conveyed the critical information about a
suspect’s right to counsel—i.e., “the right to consult
with a lawyer and to have the lawyer with him during
interrogation.” id. at 60, quoting Miranda, 384 US at
471 (quotation marks omitted). See also Powell, 559 US
at 62 n 5. In short, none of the Supreme Court cases
cited by the prosecution involved warnings comparable
to those in this case, and none of these cases resolved
the issue now before us. Ultimately, we are not aware
of any binding caselaw addressing the precise issue
before us.
Although there is no binding authority, the issue
whether a general warning of the “right to an attorney”
satisfies Miranda’s strictures has been considered by
numerous courts, including this Court. In several
decisions from this Court issued soon after Miranda
was decided, this Court concluded that general warnings, such as informing a suspect that he was “entitled
to an attorney,” did not comply with Miranda because
such warnings did not sufficiently convey a suspect’s
right to the presence of an attorney during questioning. People v. Whisenant, 11 Mich App 432, 434, 437;
161 NW2d 425 (1968). See also People v. Hopper, 21
Mich App 276, 279; 175 NW2d 889 (1970); People v.
Jourdan, 14 Mich App 743, 744; 165 NW2d 890 (1968).
While nonbinding under MCR 7.215(J)(1), this Court’s
opinions indicate that to comply with Miranda, the
police must impart more than a broad warning
interrogation, functioned as an improper temporal limitation,
suggesting that the right to counsel existed before any questions
were asked, but not during questioning.

App. 40
regarding the right to counsel; that is, the warning
must somehow convey the right to have counsel
present during the interrogation. See People v.
Johnson, 90 Mich App 415, 419-420; 282 NW2d 340
(1979) (distinguishing cases with warnings regarding
the right “to an attorney” from those involving the
right to have an attorney “present”). Similarly, numerous courts from other jurisdictions have interpreted
Miranda as requiring the police to explicitly inform a
suspect of the right to the presence of counsel before
and during the interrogation. See, e.g., Bridgers v.
Dretke, 431 F3d 853, 860 n 6 (CA 5, 2005) (“[A] suspect
must be explicitly warned that he has the right to
counsel during interrogation.”); United States v.
Tillman, 963 F2d 137, 141 (CA 6, 1992) (“[T]he police
failed to convey to defendant that he had the right to
an attorney both before, during and after questioning.”); Smith v. Rhay, 419 F2d 160, 163 (CA 9, 1969)
(“Although [the suspect] was told that he had the right
to an attorney, he was not . . . told, as required by
Miranda, that he had the right to the presence of an
attorney. . . .”); State v. McNeely, 162 Idaho 413, 416;
398 P3d 146 (2017) (concluding that a warning regarding “the right to an attorney . . . [to] help you with—
stuff ” did not adequately convey the right to the
presence of counsel before and during questioning);
Coffey v. State, 435 SW3d 834, 841-842 (Tex App, 2014)
(holding that a preinterrogation warning that the
defendant had “the right to an attorney” did not comply
with Miranda).

App. 41
Courts requiring an explicit warning regarding
the right to the presence of counsel during the
interrogation—as opposed to simply the right to an
attorney—have “stressed the importance of informing
defendants that they have the right to the actual
physical presence of an attorney,” United States v. Noti,
731 F2d 610, 615 (CA 9, 1984), and emphasized the
significance of advising defendants of the temporal
immediacy of the right to counsel, see, e.g., State v.
Williams, 144 So 3d 56, 59 (La Ct App, 2014) (recognizing that Miranda does not require a verbatim recitation
but concluding that the “temporal requirement that
the right to the lawyer attaches before and during any
interrogation is key”) (quotation marks and citation
omitted); United States v. Takai, 943 F Supp 2d 1315,
1326 (D Utah, 2013) (concluding that the “warning was
defective because it omitted reference to Defendant’s
right to have an attorney present during questioning,
i.e. at the present time”). See also State v. Carlson, 228
Ariz 343, 346, 266 P3d 369 (App., 2011) (distinguishing
“mere eventual representation by an attorney” from
the right to the presence of an attorney that “applied
before, and continued during, any questioning”). Likewise, as noted, this Court has previously acknowledged
that Miranda warnings must provide a suspect with
temporal information regarding the immediate right
to the presence of counsel during questioning. See
Whisenant, 11 Mich App at 437. For example, in
Johnson, 90 Mich App at 420, we found a warning that
the defendant “ ‘had the right to have an attorney
present’ ” sufficient to convey the essential information
required by Miranda because the right to have an

App. 42
attorney present “cannot reasonably be understood
otherwise than as informing defendant of his right to
counsel during interrogation and not merely at some
subsequent trial.”6 While no specific language is required, these cases persuasively recognize, based on
Miranda’s requirements, that the advice regarding
counsel must convey “the immediacy of the right in the
sense that it exists both before and during interrogation.” 2 LaFave et al., Criminal Procedure (4th ed.),
§ 6.8(a), pp. 886-887.
While there is authority recognizing the necessity
of an explicit warning regarding the presence of counsel during the interrogation, courts are by no means
uniform in reaching this conclusion. See Bridgers, 431
F3d at 859 (describing the split among federal circuit
courts as to whether Miranda warnings must explicitly provide that a suspect is entitled to the presence of
counsel during an interrogation). Unlike courts concluding that Miranda warnings must contain information regarding the right to the presence of counsel
during an interrogation, numerous other courts reason
that Miranda does not require “highly particularized
warnings” regarding “all possible circumstances in
which Miranda rights might apply.” United States v.
Frankson, 83 F3d 79, 82 (CA 4, 1996). Consequently,
these cases conclude that when the police provide a
6

Numerous decisions from the Michigan Supreme Court
have similarly quoted formulations of the Miranda warnings that
convey the right to the “presence of an attorney” or more
specifically the right to “the presence of an attorney during any
questioning.” See, e.g., Tanner, 496 Mich at 207 n 3; Elliott, 494
Mich at 301; Daoud, 462 Mich at 624 n 1.

App. 43
generalized warning regarding the “right to an attorney”—without any temporal qualifications or limitations on that right—the police have complied with
Miranda because a reasonable person would understand that an unqualified right to an attorney begins
immediately and continues forward in time without
qualification. id. See also United States v. Warren, 642
F3d 182, 185-187 (CA 3, 2011) (“[I]t cannot be said that
the Miranda court regarded an express reference to
the temporal durability of [the right to an attorney] as
elemental to a valid warning.”); United States v.
Caldwell, 954 F2d 496, 502 (CA 8, 1992) (concluding,
under plain-error review, that warning of the “right to
an attorney” was not deficient because there was
nothing “suggesting a false limitation” on the right to
counsel and thus the suspect was not “actively
misled”); United States v. Lamia, 429 F2d 373, 376-377
(CA 2, 1970) (holding that failure to inform the
defendant that he had the right to the “presence” of an
attorney did not render warnings deficient when he
had been told “without qualification that he had the
right to an attorney”); Carter v. People, 398 P3d 124,
128 (Colo, 2017), as mod on denial of reh (July 31, 2017)
(“[I]t would be highly counterintuitive for a reasonable
suspect in a custodial setting, who has just been
informed that the police cannot talk to him until after
they advise him of his rights to remain silent and to
have an attorney, to understand that an interrogation
may then proceed without permitting him to exercise
either of those rights.”); People v. Walton, 199 Ill App
341, 344-345; 556 NE2d 892 (1990) (“While the better
practice would be for the police to make explicit that

App. 44
defendant’s right to consult with a lawyer may be both
before and during any police interrogation, we hold
that the language used in this case [that the defendant
had a right to consult with a lawyer] was sufficient to
imply the right to counsel’s presence during questioning” because “no restrictions were stated by the police
in the present case as to how, when, or where defendant
might exercise his right ‘to consult with a lawyer.’ ”).7
7

In support of the conclusion that general warnings are
sufficient, some of these cases also note that Miranda discussed,
with apparent approval, the warnings given by the Federal
Bureau of Investigation (FBI) at the time Miranda was decided.
See, e.g., Warren, 642 F3d at 184-185; Lamia, 429 F2d at 376. As
set forth in Miranda, at that time the FBI’s practice was to warn
a suspect that “he is not required to make a statement, that any
statement may be used against him in court, that the individual
may obtain the services of an attorney of his own choice and, more
recently, that he has a right to free counsel if he is unable to pay.”
Miranda, 384 US at 483. Because the FBI warnings discussed in
Miranda did not contain a temporal reference to a suspect’s right
to the presence of counsel during the interrogation, cases such as
Warren and Lamia reason—and the prosecutor argues on
appeal—that Miranda does not contain such a requirement.
Admittedly, there is tension between what Miranda, 384 US at
479, demanded and what the FBI warnings discussed in Miranda
conveyed. Indeed, in dissenting opinions to Miranda, Justice
Clark and Justice Harlan both opined that the FBI warnings in
question did not satisfy the strictures laid down by the Miranda
majority. See id. at 500 n 3 (CLARK, J., dissenting); id. at 521
(HARLAN, J., dissenting). It does not appear that the Supreme
Court has resolved this tension. See Powell, 559 US at 73 n 8
(STEVENS, J., dissenting) (expressing doubt as to whether
“warning a suspect of his ‘right to counsel,’ without more,
reasonably conveys a suspect’s full rights under Miranda”).
Moreover, we note that the discussion of FBI practices in the
Miranda majority was immediately followed by a discussion of
the then-current practices in England, Scotland, India, Ceylon,
and the United States military courts in the larger context of

App. 45
Under these cases, provided that no improper or misleading limitations on the right to counsel are expressly communicated, a general warning regarding
the “right to counsel” is sufficient to comply with
Miranda’s requirements.
Considering the conflicting persuasive authority,
we conclude that the essential information required by
Miranda includes a temporally related warning regarding the right to consult an attorney and to have an
attorney present during the interrogation, not merely
general information regarding the “right to an attorney.” Consequently, we reaffirm our decision in
Whisenant, 11 Mich App at 437, and we hold that a
warning preceding a custodial interrogation is
deficient when the warning contains only a broad
reference to the “right to an attorney” that does not,
when the warning is read in its entirety, reasonably
convey the suspect’s right to consult with an attorney
and to have an attorney present during the interrogation. See Powell, 559 US at 60; Miranda, 384 US at
471. In reaching this conclusion, we fully acknowledge
that there is a certain logic in the proposition that an
responding to concerns that pre-interrogation warnings would
place an undue burden on investigators and detrimentally affect
criminal law enforcement. See Miranda, 384 US at 481-489.
Given the context in which the Miranda Court expressed
approval of the FBI’s warnings and the difference of opinion that
currently exists among the various courts regarding the necessity
of warning a suspect about the right to the presence of counsel
during interrogation, it is not clear to us that Miranda’s
discussion of the FBI practices compels the conclusion that
advising a suspect of the right to counsel is sufficient to convey
the right to the presence of counsel during an interrogation.

App. 46
unqualified general warning about a “right to an
attorney” encompasses all facets of the right to counsel
such that a broad warning before interrogation
regarding the “right to an attorney” impliedly informs
a suspect of the right to consult an attorney and to
have an attorney present during the interrogation. See
Warren, 642 F3d at 186-187; Frankson, 83 F3d at 82;
Walton, 199 Ill App 3d at 344-345. But, in our view, this
conclusion is disingenuous in light of Miranda’s
mandate for clear and unambiguous warnings, and it
assumes—contrary to Miranda—that all suspects, regardless of their backgrounds, have a working knowledge of everything implied by a reference to their
“right to an attorney.”
In this regard, as noted, Miranda was focused on
the right to counsel as a corollary to the right against
compelled self-incrimination, i.e., the right to counsel
that exists during custodial interrogation to “protect
an accused’s Fifth Amendment privilege in the face of
interrogation.” Miranda, 384 US at 471. This is a
specific right, and it is this right to counsel in
connection with custodial interrogation that must be
overtly conveyed to a suspect under Miranda.8 See id.
8

In comparison to the right to counsel during custodial
interrogation incident to the Fifth Amendment, the Sixth
Amendment right to counsel attaches at, or after, the initiation of
adversary judicial proceedings and extends to all critical states of
the proceedings. See People v. Buie (On Remand), 298 Mich App
50, 61; 825 NW2d 361(2012); People v. Williams, 244 Mich App
533, 538; 624 NW2d 575 (2001). Obviously, the police do not have
to provide suspects with a constitutional exegesis on the right to
counsel. But for Miranda warnings to be meaningful, there needs
to be an overt expression of the immediacy of the right to

App. 47
In this context, basic temporal information is key to
ensuring that a defendant understands what the right
to counsel entails, i.e., that it applies before and during
the interrogation as opposed to some future point. In
contrast to decisions like Frankson, 83 F3d at 82, we
are simply not persuaded by the conclusion that a
reasonable person facing custodial interrogation, regardless of the person’s background, would understand
from a general reference to “right to an attorney” that
this right includes the right to consult an attorney and
to have an attorney present during the interrogation.
Undoubtedly, such an inference can reasonably be
drawn by individuals with a preexisting understanding of the right to an attorney, including the fact that
this right exists during custodial interrogation. But,
“[c]onstitutional rights of an accused at the preliminary stage of the in-custody interrogation process is
not common placed,” and absent information regarding
the immediacy of this right to counsel, the right to
counsel could be “interpreted by an accused, in an
atmosphere of pressure from the glare of the law
enforcer and his authority, to refer to an impending
trial or some time or event other than the moment the
advice was given and the interrogation following.”9
Atwell v. United States, 398 F2d 507, 510 (CA 5, 1968).
counsel—that it “exists both before and during interrogation.” 2
LaFave et al., Criminal Procedure (4th ed.), § 6.8(a), pp. 886-887.
See also Noti, 731 F2d at 615 (“The right to have counsel present
during questioning is meaningful. Advisement of this right is not
left to the option of the police. . . .”).
9
See also Carlson, 228 Ariz at 346 (discussing the fact that
the suspect was unaware “that he had a right to the presence of

App. 48
Rather than assume people are capable of inferring their constitutional rights, Miranda provides
specific, clearcut warnings that must be given regardless of “age, education, intelligence, or prior contact
with authorities. . . .”10 Miranda, 384 US at 468-469.
With regard to the right to counsel, Miranda and its
progeny categorically provide that, “as ‘an absolute
prerequisite to interrogation,’ . . . an individual held
for questioning ‘must be clearly informed that he has
the right to consult with a lawyer and to have the
lawyer with him during interrogation.’ ” Powell, 559
US at 60, quoting Miranda, 384 US at 471. “Only
through such a warning is there ascertainable
assurance that the accused was aware of this right.”
Miranda, 384 US at 472. In the face of Miranda’s clear
dictates, we fail to see how a warning lacking this
essential information regarding the right to consult an
attorney and have an attorney present during an
an attorney (as distinguished from mere eventual representation
by an attorney), and that the right applied before, and continued
during, any questioning”); Roberts v. State, 874 So.2d 1225, 1226
(Fla Dist Ct App, 2004) (noting that the suspect believed he could
only have a lawyer “ ‘in the courtroom’ ”). Indeed, even among
cases concluding that general warnings may suffice, those courts
have acknowledged that generality in the warnings may
potentially lead to ambiguity, Caldwell, 954 F2d at 502, and that
general warnings merely “imply” the right to counsel during the
interrogation, Walton, 199 Ill App 3d at 344-345.
10
"The Fifth Amendment privilege is so fundamental to our
system of constitutional rule and the expedient of giving an
adequate warning as to the availability of the privilege so simple,
we will not pause to inquire in individual cases whether the
defendant was aware of his rights without a warning being
given.” Miranda, 384 US at 468.

App. 49
interrogation can be considered adequate. See Powell,
559 US at 60, quoting Miranda, 384 US at 471.
In this case, neither Stowinsky nor DesRosiers
explained to defendant that she had the right to the
presence of counsel. Although defendant was generally
advised that she had a right to an attorney, this broad
warning failed to reasonably convey to defendant that
she could consult an attorney before she was questioned and during her interrogation. Because defendant was not adequately advised of her right to the
presence of counsel, her subsequent statements are
inadmissible at trial. Miranda, 384 US at 470; Elliott,
494 Mich at 301. Accordingly, the trial court did not err
by granting defendant’s motion to suppress her
statements.
Affirmed and remanded for further proceedings
consistent with this opinion. We do not retain
jurisdiction.
/s/ Joel P. Hoekstra
/s/ Kirsten Frank Kelly

App. 50
STATE OF MICHIGAN
COURT OF APPEALS
PEOPLE OF THE
STATE OF MICHIGAN,
Plaintiff-Appellant,
v.
LARICCA SEMINTA
MATHEWS,

FOR PUBLICATION
May 22, 2018
9:10 a.m.
No. 339079
Oakland Circuit Court
LC No. 2016-260482-FC

Defendant-Appellee.
Before: O’CONNELL, P.J., and HOEKSTRA and K. F. KELLY,
JJ.
O’CONNELL, P.J. (concurring in part and dissenting in
part).
At 11:33 a.m., on August 12, 2016, defendant
called the Wixom Police Department and informed the
police that she had shot her boyfriend, Gabriel Dumas.
The police were immediately dispatched to defendant’s
home. Defendant was arrested and transported to the
Wixom Police Department.
At the police station, defendant was interviewed
by Detective Brian Stowinsky and Sergeant Michael
DeRosiers. Detective Stowinsky first told defendant
that he was going to question her about happened.
Before he began questioning defendant, he gave her
the following warnings:

App. 51
[B]efore I question, start asking you, you
should know that you have a right to remain
silent.
***
Anything you say may be used against you.
You have a right to a lawyer[.] [I]f you cannot
afford a lawyer, one will be provided for free.
Do you understand your rights?
Defendant answered, “[y]es.” Importantly, in addition
to the oral Miranda1 rights, defendant signed a written
advice of rights, which read:
Before any questions are asked of you, you
should know: (1) you have a right to remain
silent; (2) anything you say may be used
against you; (3) you have a right to a lawyer,
and (4) if you cannot afford a lawyer, one will
be provided free.
I understand what my rights are and am
willing to talk.
Defendant’s interview lasted approximately 61 minutes.
At the beginning of defendant’s second interview
later that day, Sergeant DeRosiers said to defendant:
Detective Stowinsky, remember he talked
about your rights and everything?
***
1

Miranda v. Arizona, 384 US 436, 86 S Ct 1602, 16 L Ed 2d
694 (1966).

App. 52
Same thing applies. . . . [Y]ou don’t have to
even talk to me if you don’t want to. You can
get an attorney. . . . [I]f you can’t afford one,
we’ll make sure you get one.
Defendant indicated that she understood and answered Sergeant DeRosiers’s questions.
It is clear from these warnings that defendant’s
right to a lawyer related to the forthcoming questioning by both Detective Stowinsky and Sergeant
DeRosiers. The lower court record is devoid of any
coercion, compulsion, or wrongful conduct by the
police. Also, there is no indication that defendant did
not or was not capable of understanding that she was
entitled to have a free attorney before, during, or after
questioning.
Moreover, the ordinary layperson understands
that the right to an attorney before questioning
extends to the duration of questioning. There is no
meaningful difference between a right to a lawyer
before questioning and during questioning. In addition,
by the time Sergeant DeRosiers interviewed her,
defendant had already been interviewed once. Sergeant DeRosiers’s reminder about defendant’s rights
reinforced her right to an attorney even though she
had already been questioned by Detective Stowinsky.
For these reasons, I concur with those cases cited in
the majority opinion holding that a generalized
warning that the suspect has the right to counsel,

App. 53
without specifying when, satisfies the Miranda
requirements.2
I conclude that defendant was adequately informed
of her Miranda rights. I would reverse the decision of
the trial court and remand for further proceedings
consistent with this opinion.
I concur with the balance of the majority opinion.
/s/ Peter D. O’Connell

2

Only lawyers are capable of dissecting words and phrases
so finely as to confuse the meaning of the Miranda warnings. The
ordinary layperson clearly understands the right to have an
attorney before, during, and after questioning. When the police
warn a suspect before the start of questioning that the suspect
has the right to counsel, for what other purpose than
questioning—the entire duration of questioning—would a suspect
be entitled to a lawyer?

App. 54
STATE OF MICHIGAN
IN THE CIRCUIT COURT FOR
THE COUNTY OF OAKLAND
PEOPLE OF THE
STATE OF MICHIGAN,
Plaintiff,
Case No. 16-260482-FC
Hon. Phyllis C. McMillen

v
LARICCA SEMINTA
MATHEWS,
Defendant.

/

Jessica R. Cooper (P23242)
Oakland County Prosecutor
Cynthia A. Brown,
APA (P57863)
1200 N. Telegraph Rd.
Pontiac, MI 48341
Joseph A. Lavigne (P50966)
Attorney for Defendant
Law Offices of
Joseph A. Lavigne
31700 W. Thirteen Mile Rd.,
Suite 96
Farmington Hills, MI 48334 /

App. 55
OPINION AND ORDER
At a session of Court
Held in Pontiac, Michigan
On
JUN 13 2017
This matter is before the Court on Defendant’s
motion to suppress statements made without the advice of her rights established in Miranda v Arizona 384
US 436, 439; 86 S Ct 1602; 16 L Ed 2d 694 (1966). Defendant argues that Miranda strictly requires that
in order for a statement of a custodial suspect to be
considered voluntary and admissible in evidence, a
suspect must be advised of each of Miranda’s individually enumerated rights before any questioning, and
that officers did not advise Ms. Mathews of her rights
to terminate questioning at any point, or to have a lawyer remain with her throughout questioning.
I.

FACTS AND PROCEEDINGS

On August 12, 2016, the Wixom Police Department
received a 911 call wherein a female caller told dispatch that she shot her boyfriend. At approximately
11:33 a.m., officers were dispatched to 27046 Sprucewood Dr., Apt. 104. At the direction of dispatch, Defendant Laricca Mathews exited the building with her
arms up, at which time she was ordered to the ground,
handcuffed and transported to the Wixom Police Department. Following her arrival at the police department, Ms. Mathews was interviewed separately by
Detective Brian Stowinsky and Sergeant Michael
DesRosiers. The interview with Stowinsky began at

App. 56
2:43 p.m. and lasted 61 minutes. The interview with
DesRosiers began at 6:00 p.m. and lasted 22 minutes.
At the beginning of the first interview, Det.
Stowinsky advised Ms. Mathews of some of her rights.
The conversation, in relevant part, was as follows:
Det. Stowinsky: Um, before I question, start
asking you, you should know that you have a
right to remain silent.
Laricca Mathews: Uh hmm
DS: Anything you say may be used against
you. You have a right to a lawyer, if you cannot
afford a lawyer, one will be provided for free.
Do you understand your rights?
LM:

Yes.

DS:

Do you want to talk to me?

LM:

Yeah, we can talk.

Stowinsky also purportedly1 used a written advice of
rights to assist him, which he testified at preliminary
examination was signed by Ms. Mathews. This document reads:
Before any questions are asked of you, you
should know: (1) you have a right to remain
silent; (2) anything you say may be used
against you; (3) you have a right to a lawyer,

1

A review of the video tape of the interrogation makes clear
that Ms. Mathews did not read the document she signed containing this language.

App. 57
and (4) if you cannot afford a lawyer, one will
be provided free.
When DesRosiers re-interviewed Ms. Mathews
later that evening, the following exchange took place:
Sgt. DesRosiers: Alright, so um, Detective
Stowinsky, remember he talked about your
rights and everything?
LM:

Uh hmm.

SD: Same thing applies. Um, you don’t, you
don’t have to even talk to me if you don’t want
to. You can get an attorney um, if you can’t afford one, we’ll make sure you get one.
LM:

Ok.

SD: So, um, we’re just continuing the interview that you started with him. . . .
Defendant claims that both the verbal and written
advice of rights were deficient, and the resulting statements are inadmissible at trial. Defendant asks that
the Court enter an order suppressing both statements
from evidence in her trial.
II.

STANDARD OF REVIEW

When seeking to admit a defendant’s statement
into evidence, the government must demonstrate that
the statement was voluntary, and the purported
waiver of rights was knowingly and intelligently made.
Edwards v Arizona, 451 US 477, 486 n 9; 101 S Ct

App. 58
1880; 68 L Ed 2d 378 (1981); People v Daoud, 462 Mich
621, 624; 614 NW2d 152 (2000).
The People’s burden of proof is a preponderance of
the evidence. People v Sears, 124 Mich App 735, 738;
336 NW2d 210 (1983). As stated by the United States
Supreme Court in Moran v Burbine, 475 US 412, 421;
106 S Ct 1135; 89 L Ed 2d 410 (1986):
The inquiry has two distinct dimensions:
First, the relinquishment of the right must
have been voluntary in the sense that it was
the product of a free and deliberate choice rather than intimidation, coercion, or deception.
Second, the waiver must have been made with
a full awareness of both the nature of the right
being abandoned and the consequences of the
decision to abandon it. Only if the “totality of
the circumstances surrounding the interrogation” reveal both an uncoerced choice and the
requisite level of comprehension may a court
properly conclude that the Miranda rights
have been waived.
In the present case, Defendant does not claim that
she was subject to intimidation or coercion, rather, the
inquiry is whether Ms. Mathews’ waiver was knowingly and intelligently made.
III.

ANALYSIS

In the case of Miranda v Arizona, 384 US 436, 458;
86 S Ct 1602; 16 L Ed 2d 694 (1966), the United States
Supreme Court found that because of the “compulsion
inherent in custodial surroundings, no statement

App. 59
obtained from [a] defendant can truly be the product of
his free choice.” Because of this, the Court fashioned a
set of procedural safeguards “to notify the person of his
right of silence [pursuant to the Fifth Amendment] and
to assure that the exercise of the right will be scrupulously honored.” Id. at 479. These safeguards require
that the defendant:
must be warned prior to any questioning that
he has the right to remain silent, that anything he says can be used against him in a
court of law, that he has the right to the presence of an attorney, and that if he cannot afford an attorney one will be appointed for him
prior to any questioning if he so desires. Opportunity to exercise these rights must be afforded to him throughout the interrogation.
After such warnings have been given, and
such opportunity afforded him, the individual
may knowingly and intelligently waive these
rights and agree to answer questions or make
a statement. But unless and until such warnings and waiver are demonstrated by the
prosecution at trial, no evidence obtained as a
result of interrogation can be used against
him. [Id.]
While the Supreme Court has not dictated the
words in which the essential information must be conveyed, they have consistently held that the four warnings required by Miranda are “invariable” and must be
given if a voluntary waiver is to occur. Florida v Powell,
559 US 50, 60; 130 S Ct 1195; 175 L Ed 2d 1009 (2010).
As in the present case, Powell involved Miranda’s third

App. 60
warning, i.e., that the suspect has the right to the presence of an attorney during interrogation. In reviewing
the language used by the police in Powell, the Court
reiterated the concern expressed in Miranda that the
“circumstances surrounding in-custody interrogation
can operate very quickly to overbear the will of one
merely made aware of his privilege to remain silent.
Id., quoting Miranda, 384 US at 469. In response to
that concern, as “an absolute prerequisite to interrogation . . . an individual held for questioning must be
clearly informed that he has a right to consult with a
lawyer and to have the lawyer with him during interrogation.” Powell, 559 US at 60, quoting Miranda, 384
US at 471.
As stated by the Miranda Court, “[t]he Fifth
Amendment privilege is so fundamental to our system
of constitutional rule and the expedient of giving an
adequate warning as to the availability of the privilege
so simple, we will not pause to inquire in individual
cases whether the defendant was aware of his rights
without a warning being given. Assessments of the
knowledge the defendant possessed, based on information as to his age, education, intelligence, or prior
contact with authorities, can never be more than speculation; a warning is a clearcut fact.” Miranda, 384 US
at 468-469 (footnote omitted; emphasis added).
As directed by the Supreme Court, this Court is to
look no further than whether or not the proper warnings were given. “[W]hatever the background of the
person interrogated, a warning at the time of the interrogation is indispensable to overcome its pressures and

App. 61
to insure that the individual knows he is free to exercise the privilege at that point in time.” Id at 469.
From these decisions it can be seen that regardless
of her background, intelligence or knowledge, Ms.
Mathews had to be advised of her right to consult
with a lawyer and to have a have an attorney with her
during interrogation. As in Powell, the question in the
present case is whether the warnings Ms. Mathews
received satisfied this requirement. The Court finds
that they did not.
Nowhere in the warnings received by Ms.
Mathews was she told that she has the right to consult
an attorney before her interrogation or to have an attorney present with her during interrogation. Nor is
there any language from which it could be inferred
that she had that right. In the absence of the explicit
indication that she had the right to an attorney present before or during questioning, the inference was
that at some point in the future, she would be entitled
to have an attorney represent her. As stated in
Miranda:
the right to have counsel present at the interrogation is indispensable to the protection of
the Fifth Amendment privilege under the
system we delineate today. Our aim is to assure that the individual’s right to choose between silence and speech remains unfettered
throughout the interrogation process. A oncestated warning, delivered by those who will
conduct the interrogation, cannot itself suffice
to that end among those who most require

App. 62
knowledge of their rights. A mere warning
given by the interrogators is not alone sufficient to accomplish that end . . . [T]he need for
counsel to protect the Fifth Amendment privilege comprehends not merely a right to consult with counsel prior to questioning, but also
to have counsel present during any questioning if the defendant so desires. [384 US at 469470]
The Court went on to say:
The presence of counsel at the interrogation
may serve several significant subsidiary functions as well. If the accused decides to talk to
his interrogators, the assistance of counsel
can mitigate the dangers of untrustworthiness. With a lawyer present the likelihood
that the police will practice coercion is reduced, and if coercion is nevertheless exercised the lawyer can testify to it in court. The
presence of a lawyer can also help to guarantee that the accused gives a fully accurate
statement to the police and that the statement is rightly reported by the prosecution at
trial. [Id. at 470].
This language leaves no doubt of the Supreme
Court’s view of the importance of the right to have an
attorney present during interrogation. In conclusion of
these thoughts the Court stated:
Accordingly we hold that an individual held
for interrogation must be clearly informed
that he has the right to consult with a lawyer
and to have the lawyer with him during

App. 63
interrogation under the system for protecting
the privilege we delineate today. As with the
warnings of the right to remain silent and
that anything stated can be used in evidence
against him, this warning is an absolute prerequisite to interrogation. [Id. at 471]
The prosecutor has cited a number of cases where
the court was required to determine whether the warnings concerning the right to have an attorney present
given by police were sufficient under Miranda. It is
telling that in every case cited by the prosecutor, the
words “present” or “presence” of an attorney, or have
an attorney “with you” were used. In those various
cases, the inference of the warning was that the defendant had a right to have an attorney present with
them during the interrogation. In People v Gilleylem,
34 Mich App 393, 395; 191 NW2d 96 (1971), the police
advised the defendant “[y]ou may have this attorney
present here before answering any questions.” In People v Watkins 60 Mich App 124, 128; 230 NW2d 338
(1975), the defendant was advised she had the “right
to an attorney or lawyer present before answering any
questions or making any statements” and that she
could decide to exercise these rights at any time. In
Duckworth v Eagan, 492 US 195, 198; 109 S Ct 2875;
106 L Ed 2d 166 (1989), the police told the defendant
“[y]ou have a right to talk to a lawyer for advice before
we ask you any questions, and to have him with you
during questioning”. In California v Prysock, 453 US
355, 356; 101 S Ct 2806; 69 L Ed 2d 696 (1981), the
defendant was advised he had “the right to talk to a
lawyer before you are questioned, have him present

App. 64
with you while you are being questioned, and all during the questioning.”
The prosecutor also cites Prysock for the proposition that police can give a “fully effective equivalent”2
of the Miranda warnings as a prerequisite to the admissibility of any statement made by the Defendant.
In the present case, the warnings given do not contain
the advice that the Defendant had the right to the
presence of a lawyer before being questioned, and
therefore were not a “fully effective equivalent.”
It should also be noted that the cases cited by the
prosecutor all predate the case of Dickerson v United
States, 530 US 428; 120 S Ct 2326; 147 L Ed 2d 405
(2000), where the Supreme Court made clear that the
Miranda opinion was meant to “give concrete constitutional guidelines for law enforcement agencies and
courts to follow,” and that Miranda established “constitutional standards for protection of the privilege”
against self-incrimination, regardless of prior cases
that implied the warnings were not constitutionally
required. Id. at 438-440.
IV.

CONCLUSION

The warnings given by Detective Stowinsky and
Sergeant DesRosiers failed to advise the Defendant
that she had the right to have an attorney present
before and during interrogation. The warnings given
were not the fully effective equivalent of advising her
2

453 US at 359.

App. 65
that she had the right to the presence of an attorney,
and that if she could not afford an attorney one would
be appointed for her prior to any questioning if she so
desired. As set forth in the rulings above, without
those warnings, the constitutional standards for the
protection of the Fifth Amendment right against selfincrimination have not been met, and the statements
Defendant gave to Detective Stowinsky and Sergeant
DesRosiers may not be used in a trial against her.
WHEREFORE IT IS HEREBY ORDERED that
Defendant’s Motion to Suppress Statements is
GRANTED.
IT IS SO ORDERED.
/s/ Phyllis C. McMillen
Phyllis C. McMillen,
Circuit Judge
[Certificate Of Service Omitted]

App. 66
[WRITTEN ADVICE OF RIGHTS FORM]
Before any questions are asked of you, you should
know: (1) you have a right to remain silent; (2) anything you say may be used against you; (3) you have
a right to a lawyer, and (4) if you cannot afford a
lawyer, one will be provided free.
I understand what my rights are and am willing
to talk.

App. 67
People v Laricca Seminta Mathews
PO# 16-37248
Interview with Defendant
LM: Laricca Mathews
DS: Detective Stowinsky
DS: Alrighty, I am Detective Brian Stowinsky.
LM: Uh hmm.
DS: Brian, you can call me. I’m going to call you LaLa,
it’s easier.
LM: Ok.
DS: Mathews, right?
LM: Uh hmm.
DS: What’s your phone number?
LM: xxx-xxx-xxxx
DS: Ok, (inaudible), um, I’m going to question you
about what happened today.
LM: Uh hmm.
DS: Ok, um, I’m going to review these, ok?
LM: Uh hmm.
DS: I’m going to read these to you.
LM: Uh hmm.
DS: Um, before I question, start asking you, you should
know that you have a right to remain silent.

App. 68
LM: Uh hmm.
DS: Anything you say maybe used against you. You
have a right to a lawyer, if you cannot afford a lawyer,
one will be provided for free. Do you understand your
rights?
LM: Yes.
DS: Do you want to talk to me?
LM: Yeah, we can talk.

App. 69
People v Laricca Seminta Mathews
PO# 16-37248
Second Interview with Defendant
LM: Laricca Mathews
DR: Detective DeRosiers
DR: Have a seat, what side did you sit on last time?
LM: That side right there.
DR: Yep, that’s good. Alright, so um, Detective
Stowinsky, remember he talked about your rights and
everything?
LM: Uh hmm.
DR: Same thing applies. Um, you don’t, you don’t have
to even talk to me if you don’t want to. You can get an
attorney um, if you can’t afford one, we’ll make sure
you get one.
LM: Ok.
DR: So, um, we’re just continuing the interview that
you started with him. I just looked over the statement
and have a couple questions about it. Um, so I’m looking at the statement and the problem I have, and you
can stop me at any time you want, is, it’s from the
things in the statement don’t necessarily match up
with the evidence that we found. Um, and, and to connect these, coming to mind is, you mentioned that he
was jumping on you.
LM: Uh hmm.

